<html>
<title> - THE GLOBAL REACH OF AL-QAEDA</title>
<body><pre>[Senate Hearing 107-390]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-390

                      THE GLOBAL REACH OF AL-QAEDA

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 18, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


77-601              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                  BARBARA BOXER, California, Chairman
JOHN F. KERRY, Massachusetts         MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 BILL FRIST, Tennessee
JOSEPH R. BIDEN, Jr., Delaware       JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     SAM BROWNBACK, Kansas

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Caruso, Mr. J. T., Counterterrorism Division, Federal Bureau of 
  Investigation, Washington, DC..................................     3
    Prepared statement...........................................     4
Flournoy, Ms. Michele, senior advisor, International Security 
  Program, Center for Strategic and International Studies, 
  Washington, DC.................................................    20
Johnson, Mr. Larry C., former Deputy Director, (1989-1993) Office 
  of Counterterrorism, U.S. Department of State, Washington, DC..    15
    Prepared statement...........................................    17
Wilshere, Mr. Thomas, Deputy Section Chief, International 
  Terrorism Operational Section, Federal Bureau of Investigation, 
  Washington, DC.................................................     7

                                 (iii)

  

 
                      THE GLOBAL REACH OF AL-QAEDA

                              ----------                              


                       TUESDAY, DECEMBER 18, 2001

                           U.S. Senate,    
              Subcommittee on International
                          Operations and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara 
Boxer, (chairman of the subcommittee), presiding.
    Present: Senators Boxer and Bill Nelson.
    Senator Boxer. The hearing will come to order. Today, the 
Foreign Relations Subcommittee on International Operations and 
Terrorism meets to discuss the next steps in the global fight 
against the al-Qaeda terrorist organization. It has been just 
over 3 months since al-Qaeda terrorists hijacked U.S. civilian 
aircraft and used them as missiles to attack the World Trade 
Center and the Pentagon, a vicious and cruel act that killed 
and injured thousands of innocent people from more than 80 
different nations.
    While it was evident shortly after the September 11 attack 
that Osama bin Laden and his al-Qaeda organization were 
responsible, the administration's initial steps were of a 
diplomatic nature and quickly bore fruit. The United Nations 
Security Council passed a binding resolution requiring all 
member countries to pursue terrorists and the financial systems 
that support them.
    NATO invoked Article 5 of the North Atlantic Treaty, 
declaring that the September 11 attack on America was an attack 
on all 19 NATO nations. The Organization of American States 
followed suit by invoking the Rio Treaty, which obligates 
signators to consider an attack against any member as an attack 
against all, and more than 150 countries have joined the United 
States in targeting terrorist assets.
    On October 7, the United States launched military strikes 
against al-Qaeda camps and Taliban military installations, and 
today I am happy to say the Taliban has been ousted from power. 
The Taliban is a regime that we in this committee have 
discussed over the years since 1997. We have always passed 
legislation, under both Republican and Democratic Presidents, 
that called on the Executive never to recognize the Taliban as 
the legitimate Government of Afghanistan and both Democratic 
and Republican administrations followed the will of this 
committee. The American flag has been raised at the embassy in 
Kabul, and a new Afghan Government will shortly be sworn into 
power, and I am very pleased to say it will have two women in 
the interim government.
    Al-Qaeda and their Taliban cohorts once controlled 95 
percent of Afghanistan. Thanks to U.S. military action, al-
Qaeda and Taliban control of Afghanistan is limited to just a 
number of caves. Despite the fact that Mullah Omar and Osama 
bin Laden are still at large, which is what we believe, the 
U.S. campaign against them has been extremely successful, and 
Americans should be very proud.
    With bin Laden and his lieutenants on the run, I think it 
is important to look at the next steps in the campaign against 
al-Qaeda. At today's hearing, we will be examining the 
following:
    No. 1. The impact of U.S. military, diplomatic, and 
financial actions, the impact of those actions on the al-Qaeda 
organization;
    No. 2. The global reach and threat of al-Qaeda cells, 
including the possibility that al-Qaeda terrorists have 
obtained materials useful in creating weapons of mass 
destruction; and
    No. 3. What can be done to build on the success of U.S. 
policies in fighting al-Qaeda terrorists and those that support 
them?
    To help us accomplish these goals, I placed a call to 
Assistant Attorney General Michael Chertoff to ask that the 
Justice Department make available to this subcommittee a former 
member of al-Qaeda who testified for the government during the 
embassy bombing trials. We had a very long and interesting 
conversation, and it was agreeable. For a variety of reasons 
Mr. Chertoff suggested that the committee hear instead from 
members of the FBI who were very familiar with the testimony of 
these former members of al-Qaeda.
    As a result, our witnesses on the first panel are Mr. J. T. 
Caruso, Acting Assistant Director of the FBI's Counterterrorism 
Division, and Mr. Thomas Wilshere, Deputy Chief of the FBI's 
International Terrorism Operations Section. Mr. Caruso will 
testify on al-Qaeda's global reach, al-Qaeda's ties to other 
terrorist organizations, and summarize what we learned about 
al-Qaeda from the embassy bombing trial.
    Our second panel consists of two private witnesses, Mr. 
Larry Johnson, a former Deputy Director of the Office of 
Counterterrorism at the State Department, and Ms. Michele 
Flournoy, senior advisor of the International Security Program 
at the Center for Strategic and International Studies.
    Last week, the world saw a videotape in which Osama bin 
Laden admitted to being the cold, calculating murderer we all 
thought that he was. In the videotape, Osama bin Laden said, 
``when people see a strong horse and a weak horse by nature 
they will like the strong horse.'' Clearly, to me, we know who 
the strong horse is. It is the people of this country. It is 
the strength of this country. It is the convictions of this 
country. It is the democracy of this country. It is the 
military of this country. It is everything this country stands 
for.
    And Mr. Caruso, I want to thank you very much for coming 
here today and making yourself available, because I do believe 
that we have lost our breath since September 11. Collectively 
as a country we did not know we had this enemy. We had no idea, 
in terms of the breadth and reach of this enemy. It came at us 
out of the blue, literally and figuratively, and you are going 
to help us today understand what this enemy looks like, how 
deep the roots are, and that will help us set policy that will 
ensure our success, so we welcome you very much. We do not have 
any time limits. Please present what you have to say.

   STATEMENT OF MR. J. T. CARUSO, COUNTERTERRORISM DIVISION, 
        FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, DC

    Mr. Caruso. Good afternoon, Madam Chairman. I am pleased to 
appear before the subcommittee to discuss al-Qaeda. I have a 
longer statement, which I have submitted to be included in the 
record, but what I would like to do is just touch upon some 
highlights, and we will move on to the discussion.
    Senator Boxer. Please, take your time.
    Mr. Caruso. Al-Qaeda, roughly translated, ``The Base,'' was 
developed by Osama bin Laden and others in the early 1980's to 
support the war effort in Afghanistan against the former Soviet 
Union. The resulting victory in Afghanistan gave rise to the 
overall jihad, or Holy War.
    Senator Boxer. Would you pull the mike closer to you so 
everyone can hear.
    Mr. Caruso. Trained Mujahedin fighters from Afghanistan 
began returning to such countries as Egypt, Algeria, and Saudi 
Arabia with extensive jihad experience and the desire to 
continue the jihad. One of the principal goals of al-Qaeda was 
to drive the U.S. Armed Forces out of Saudi Arabia and 
elsewhere on the Saudi Arabian Peninsula, as well as out of 
Somalia. Although al-Qaeda functions independently of other 
terrorist organizations, it also uses other terrorist 
organizations to accomplish its goals.
    Osama bin Laden justifies the criminal action of al-Qaeda 
through the issuance of fatwahs, which are nothing more than 
his own warped interpretation of Islamic law. Al-Qaeda's 
fatwahs essentially indicate that attacks against U.S. 
interests, domestic and foreign, civil and military, are both 
proper and necessary.
    For example, on February 22, 1998, bin Laden issued a 
fatwah stating that it is the duty of all Muslims to kill 
Americans. This fatwah read in part, ``in compliance with God's 
order we issue the following fatwah to all Muslims: The ruling 
to kill the Americans and their allies, including civilians and 
military, is an individual duty for every Muslim who can do it 
in any country in which it is possible to do it.''
    Senator Boxer. Would you repeat that fatwah, the whole 
thing, from the top?
    Mr. Caruso. It is an excerpt from a February 22, 1998 
fatwah. In it, bin Laden states it is the duty of all Muslims 
to kill Americans. This fatwah read in part, ``in compliance 
with God's order, we issue the following fatwah to all Muslims: 
The ruling to kill the Americans and their allies, including 
civilians and military, is an individual duty for every Muslim 
who can do it in any country in which it is possible to do 
it.''
    Those fatwahs have resulted in attacks against U.S. 
nationals in locations around the world, including Somalia, 
Kenya, Tanzania, Yemen, and now in the United States. Since 
1993, thousands of people have died in those attacks. As was 
revealed at the trial that took place in New York earlier this 
year, bin Laden and al-Qaeda were seeking to obtain nuclear and 
chemical weapons, and the organization engaged in sophisticated 
training.
    The persons who carried out the 1998 attacks in Kenya and 
Tanzania have since been publicly identified. The principal 
participants were members of al-Qaeda and/or the affiliated 
terrorist group, the Egyptian Islamic Jihad. In short the 
testimony in the trial confirmed that al-Qaeda has access to 
the money, training, and equipment it needs to carry out 
successful terrorist attacks. They plan their operations well 
in advance, and have the patience to wait to conduct the attack 
at the right time.
    In conclusion, let me state that it is too early to tell 
from a law enforcement perspective how the current military 
campaign in Afghanistan will affect al-Qaeda and its ability to 
operate in the future. Determination and vigilance will remain 
the keys to any success. It is one thing to disrupt an 
organization such as al-Qaeda. It is another to dismantle and 
destroy it. This must truly remain an international effort, and 
all agencies within the U.S. Government must remain vigilant 
and must continue to work together in order to eradicate this 
scourge to all mankind everywhere known as al-Qaeda.
    Thank you.
    [The prepared statement of Mr. Caruso follows:]

    Prepared Statement of J. T. Caruso, Acting Assistant Director, 
       Counterterrorism Division, Federal Bureau of Investigation

    Good morning, Madam Chairwoman and Members of the Subcommittee. My 
name is J. T. Caruso and I am the Acting Assistant Director of the 
FBI's Counterterrorism Division. I am pleased to appear before the 
Subcommittee to discuss Al-Qaeda International.

                         AL-QAEDA INTERNATIONAL

    ``Al-Qaeda'' (``The Base'') was developed by Osama Bin Laden and 
others in the early 1980's to support the war effort in Afghanistan 
against the Soviets. The resulting ``victory'' in Afghanistan gave rise 
to the overall ``Thad'' (Holy War) movement. Trained Mujahedin fighters 
from Afghanistan began returning to such countries as Egypt, Algeria, 
and Saudi Arabia, with extensive ``jihad'' experience and the desire to 
continue the ``jihad''. This antagonism began to be refocused against 
the U.S. and its allies.
    Sometime in 1989, Al-Qaeda dedicated itself to further opposing 
non-Islamic governments in this region with force and violence. The 
group grew out of the ``mekhtab al khidemat' (the Services Office) 
organization which maintained offices in various parts of the world, 
including Afghanistan, Pakistan and the United States. Al-Qaeda began 
to provide training camps and guesthouses in various areas for the use 
of Al-Qaeda and its affiliated groups. They attempted to recruit U.S. 
citizens to travel throughout the Western world to deliver messages and 
engage in financial transactions for the benefit of Al-Qaeda and its 
affiliated groups and to help carry out operations. By 1990 Al-Qaeda 
was providing military and intelligence training in various areas 
including Afghanistan, Pakistan and the Sudan, for the use of Al-Qaeda 
and its affiliated groups, including the Al-Jihad (Islamic Jihad) 
organization.
    One of the principal goals of Al-Qaeda was to drive the United 
States armed forces out of Saudi Arabia (and elsewhere on the Saudi 
Arabian peninsula) and Somalia by violence. Members of Al-Qaeda issued 
fatwahs (rulings on Islamic law) indicating that such attacks were both 
proper and necessary.
    Al-Qaeda opposed the United States for several reasons. First, the 
United States was regarded as an ``infidel'' because it was not 
governed in a manner consistent with the group's extremist 
interpretation of Islam. Second, the United States was viewed as 
providing essential support for other ``infidel'' governments and 
institutions, particularly the governments of Saudi Arabia and Egypt, 
the nation of Israel and the United Nations organization, which were 
regarded as enemies of the group. Third, Al-Qaeda opposed the 
involvement of the United States armed forces in the Gulf War in 1991 
and in Operation Restore Hope in Somalia in 1992 and 1993, which were 
viewed by Al-Qaeda as pretextual preparations for an American 
occupation of Islamic countries. In particular, Al-Qaeda opposed the 
continued presence of American military forces in Saudi Arabia (and 
elsewhere on the Saudi Arabian peninsula) following the Gulf War. 
Fourth, Al-Qaeda opposed the United States Government because of the 
arrest, conviction and imprisonment of persons belonging to Al-Qaeda or 
its affiliated terrorist groups or with whom it worked, including Sheik 
Omar Abdel Rahman, who was convicted in the first World Trade Center 
bombing.
    From its inception until approximately 1991, the group was 
headquartered in Afghanistan and Peshawar, Pakistan. Then in 1991, the 
group relocated to the Sudan where it was headquartered until 
approximately 1996, when Bin Laden, Mohammed Atef and other members of 
Al-Qaeda returned to Afghanistan. During the years Al-Qaeda was 
headquartered in Sudan the network continued to maintain offices in 
various parts of the world and established businesses which were 
operated to provide income and cover to Al-Qaeda operatives.

             AL-QAEDA TIES TO OTHER TERRORIST ORGANIZATIONS

    Although Al-Qaeda functions independently of other terrorist 
organizations, it also functions through some of the terrorist 
organizations that operate under its umbrella or with its support, 
including: the Al-Jihad, the Al-Gamma Al-Islamiyya (Islamic Group--led 
by Sheik Omar Abdel Rahman and later by Ahmed Refai Taha, a/k/a ``Abu 
Yasser al Masri,''), Egyptian Islamic Jihad, and a number of jihad 
groups in other countries, including the Sudan, Egypt, Saudi Arabia, 
Yemen, Somalia, Eritrea, Djibouti, Afghanistan, Pakistan, Bosnia, 
Croatia, Albania, Algeria, Tunisia, Lebanon, the Philippines, 
Tajikistan, Azerbaijan, the Kashmiri region of India, and the Chechen 
region of Russia. Al-Qaeda also maintained cells and personnel in a 
number of countries to facilitate its activities, including in Kenya, 
Tanzania, the United Kingdom, Canada and the United States. By banding 
together, Al-Qaeda proposed to work together against the perceived 
common enemies in the West--particularly the United States which Al-
Qaeda regards as an ``infidel'' state which provides essential support 
for other ``infidel'' governments. Al-Qaeda responded to the presence 
of United States armed forces in the Gulf and the arrest, conviction 
and imprisonment in the United States of persons belonging to Al-Qaeda 
by issuing fatwahs indicating that attacks against U.S. interests, 
domestic and foreign, civilian and military, were both proper and 
necessary. Those fatwahs resulted in attacks against U.S. nationals in 
locations around the world including Somalia, Kenya, Tanzania, Yemen, 
and now in the United States. Since 1993, thousands of people have died 
in those attacks.

                        THE FATWAH'S OF AL-QAEDA

The Fatwah Against American Troops in Somalia
    At various times from about 1992 until about 1993, Osama Bin Laden, 
working together with members of the fatwah committee of Al-Qaeda, 
disseminated fatwas to other members and associates of Al-Qaeda which 
directed that the United States forces stationed in the Horn of Africa, 
including Somalia, should be attacked. Indeed, Bin Laden has claimed 
responsibility for the deaths of 18 U.S. servicemen killed in 
``Operation Restore Hope'' in Somalia in 1994.
February, 1998 Fatwah
    On February 22, 1998, Bin Laden issued a fatwah stating that it is 
the duty of all Muslims to kill Americans. This fatwah read, in part, 
that ``in compliance with God's order, we issue the following fatwah to 
all Muslims: the ruling to kill the Americans and their allies, 
including civilians and military, is an individual duty for every 
Muslim who can do it in any country in which it is possible to do it.'' 
This fatwah appears to have provided the religious justification for, 
and marked the start of logistical planning for, the U.S. Embassy 
bombings in Kenya and Tanzania.
    In February 1998, Osama Bin Ladin and one of his top lieutenants 
and leader of the Al-Jihad organization in Egypt, Ayman Al Zawahiri, 
endorsed a fatwah under the banner of the ``International Islamic Front 
for Jihad on the Jews and Crusaders.'' This fatwah, published in the 
publication Al-Quds al-`Arabi on February 23, 1998, stated that Muslims 
should kill Americans--including civilians--anywhere in the world where 
they can be found. In or about April 1998, one of the defendants in the 
East Africa trial, Mohamed Sadeek Odeh, discussed the fatwahs issued by 
Bin Ladin and Al-Qaeda against America with another defendant, Mustafa 
Mohamed Fadhil. This discussion took place in Kenya.

                       THE TRIAL IN NEW YORK CITY

    As was revealed at the trial that took place in New York earlier 
this year, a former member of Bin Laden's Al-Qaeda network began 
working with the United States government in 1996. That witness 
revealed that Bin Laden had a terrorist group, Al-Qaeda, which had 
privately declared war on America and was operating both on its own and 
as an umbrella for other terrorist groups, The witness revealed that 
Al-Qaeda had a close working relationship with the aforementioned 
Egyptian terrorist group known as Egyptian Islamic Jihad. The witness 
recounted that Bin Laden and Al-Qaeda were seeking to obtain nuclear 
and chemical weapons and that the organization engaged in sophisticated 
training. He also revealed that Al-Qaeda obtained specialized terrorist 
training from and worked with Iranian government officials and the 
terrorist group Hezballah. Thereafter, in August 1996, two years prior 
to the bombings of the embassies in East Africa, Osama Bin Laden issued 
a public Declaration of Jihad against the United States military. This 
was followed by a series of other statements including a February 1998 
joint declaration, signed by Osama Bin Laden and the leader of Egyptian 
Islamic Jihad (EIJ), among others, which declared war on the American 
population, military and civilian. The public statements corroborated 
the witness information that Bin Laden, Al-Qaeda and EIJ were working 
to kill Americans. In May 1998, Bin Laden gave a press interview in 
which he threatened American interests and complained that the United 
States was using its embassies overseas to track down terrorists.
    On August 7, 1998, the bombings of the embassies in Nairobi, Kenya, 
and Dar es Salaam, Tanzania, occurred roughly simultaneously. The 
persons who carried out the attacks in Kenya and Tanzania have since 
been identified publicly: the principal participants were members of 
Al-Qaeda and/or the affiliated terrorist group EIJ. Indeed, Mohamed 
Rashed Daoud al-`Owhali, a Saudi who admitted he was in the bomb truck 
used in Nairobi, confessed that he had been trained in Al-Qaeda camps, 
fought with the Taliban in Afghanistan (with the permission of Osama 
Bin Laden), had asked Bin Laden for a mission and was thereafter 
dispatched by others to East Africa after undergoing extensive 
specialized training at camps in Afghanistan. Another defendant, 
Mohamed Sadeek Odeh, in whose residence was found a sketch of the area 
where the bomb was to be placed, admitted he was a member of Al-Qaeda 
and identified the other principal participants in the bombing as Al-
Qaeda members. Odeh admitted that he was told the night prior to the 
bombings that Bin Laden and the others he was working with in 
Afghanistan had relocated from their camps because they expected the 
American military to retaliate.
    There was independent proof of the involvement of Bin Laden, Al-
Qaeda and EIJ in the bombings. First, the would-be suicide bomber, al-
`Owhali, ran away from the bomb truck at the last minute and survived. 
However, he had no money or passport or plan by which to escape Kenya. 
Days later, he called a telephone number in Yemen and thus arranged to 
have money transferred to him in Kenya. That same telephone number in 
Yemen was contacted by Osama Bin Laden's satellite phone on the same 
days that al-`Owhali was arranging to get money. Moreover, al-`Owhali 
and Odeh both implicated men named ``Harun,'' ``Saleh'' and ``Abdel 
Rahman,'' now all fugitives, as organizing the Nairobi bombing. All 
three have been conclusively shown to be Al-Qaeda and/or EIJ members. 
Indeed, documents recovered in a 1997 search of a house in Kenya showed 
Harun to be an Al-Qaeda member in Kenya. The house where the Nairobi 
bomb was assembled was located and proved to have been rented by that 
same Al-Qaeda member Harun. Moreover, the records for the telephone 
located at the bomb factory showed calls to the same number in Yemen 
which al-`Owhali contacted for money after the bombing and which Osama 
Bin Laden's satellite telephone also contacted before and after the 
bombings.
    The person arrested for the Tanzania bombing, Khalfan Khamis 
Mohamed, also implicated ``Saleh'' and ``Abdel Rahman'' in the Tanzania 
bombing--as did Odeh. Telephone records confirmed that the Kenya and 
Tanzania cells were in contact shortly before the bombings.
    Additional proof of the involvement of Al-Qaeda and EIJ in the East 
Africa bombings came from a search conducted in London of several 
residences and business addresses belonging to Al-Qaeda and EIJ 
members. In those searches, a number of documents were found, including 
claims of responsibility in the name of a fictitious group. Al-`Owhali, 
the would-be suicide bomber, admitted that he was told to make a 
videotape of himself using the name of a fictitious group, the same 
name found on the claims of responsibility. The claims of 
responsibility were received in London on the morning the bombings 
occurred, likely before the bombings even occurred. The claim documents 
could be traced back to a telephone number that was in contact with Bin 
Laden's satellite telephone. The claims, which were then disseminated 
to the press, were clearly authored by someone genuinely familiar with 
the bombing conspirators as they stated that the bombings were carried 
out by two Saudis in Kenya and one Egyptian in Tanzania. The 
nationality of the bombers did not become known to investigators until 
weeks later. Moreover, the plan had been for two Saudis to be killed in 
the Nairobi bombing but only one was actually killed as al-`Owhali ran 
away at the last minute. Thus the claims were written by someone who 
knew what the plan was but before they knew the actual results.
    In short, the trial record left little doubt that the East Africa 
embassy bombings were carried out as a joint operation of Al-Qaeda and 
EIJ. The testimony in the trial confirmed that:

  - Al-Qaeda has access to the money, training, and equipment it needs 
        to carry out successful terrorist attacks.
  - They plan their operations well in advance and have the patience to 
        wait to conduct the attack at the right time.
  - Prior to carrying out the operation, Al-Qaeda conducts surveillance 
        of the target, sometimes on multiple occasions, often using 
        nationals of the target they are surveilling to enter the 
        location without suspicion. The results of the surveillance are 
        forwarded to Al-Qaeda HQ as elaborate ``ops plans'' or 
        ``targeting packages'' prepared using photographs, CADCAM 
        (computer assisted design/computer assisted mapping) software, 
        and the operative's notes.

            HOW U.S. MILITARY ACTIONS MIGHT AFFECT AL-QAEDA

    It is too early to tell, from a law enforcement perspective, how 
the current military campaign in Afghanistan will affect Al-Qaeda and 
its ability to operate in the future. Determination and vigilance will 
remain the keys to any success. It is one thing to disrupt an 
organization such as Al-Qaeda, it is another to totally dismantle and 
destroy it. This must truly remain an international effort, with 
international cooperation on all levels, in order to be successful. All 
agencies within the U.S. government must remain vigilant, and must 
continue to cooperate and work together, in order to truly eradicate 
this scourge to all mankind everywhere known as Al-Qaeda.

    Senator Boxer. Thank you very much.
    Mr. Wilshere, do you want to add anything? We would love to 
hear from you if you have something to add.

    STATEMENT OF MR. THOMAS WILSHERE, DEPUTY SECTION CHIEF, 
INTERNATIONAL TERRORISM OPERATIONAL SECTION, FEDERAL BUREAU OF 
                 INVESTIGATION, WASHINGTON, DC

    Mr. Wilshere. I would be happy to answer questions.
    Perhaps if I could just do an overview, in fact, all the 
way back to the beginning, if you view the worldwide jihad 
movement, that much of it is considered to be legitimate by 
many of our allies in terms of defense of Islam. It is a multi, 
maybe even a multibillion effort that manifests itself in 
places like Chechnya or Bosnia, the Philippines, and it has 
been going on for a long time and it involves a great logistics 
effort as well.
    If you view that as a large river with a number of 
tributaries, many of which are somehow legitimate, or 
illegitimate, including humanitarian aid, al-Qaeda is one of 
the most significant off-shoots. There are several others, and 
one could look at the last 10 years as a process by which those 
off-shoots converged and began to assist each other more 
regularly and with greater effect.
    The goals of the group, I think it was evident during some 
of the testimony during the bombing trials, and certainly came 
out during the course of the FBI's investigations over the 
years, as well as that of other agencies and countries, have 
evolved, as well as their capabilities from one that insisted 
on the United States leaving bin Laden's Holy Land, which would 
be Mecca and Medina and the surrounding area, to one in which 
the United States is viewed as the stabilizing mechanism that 
allows the regimes that bin Laden views to be corrupt to stay 
in power.
    Egypt and Saudi Arabia would be two examples of that, and 
so as Mr. Caruso noted, one of bin Laden's key allies is the 
Egyptian Islamic Jihad, and their goal started off as an attack 
on the Egyptian Government.
    As long ago as the February 1998 fatwah the views evolved 
to incorporate the Arab-Israeli conflict which had not been too 
much on bin Laden's screen before that, at least visibly. That 
has become more solidly part of the effort, and the effect of 
that has been to draw more diverse support into bin Laden's 
fold. It would appear that one of the other objectives that bin 
Laden certainly achieved, although I do not think he perhaps 
anticipated it taking quite this form, was to so provoke the 
West that it would engage in a land war in Afghanistan, thereby 
provoking Armageddon between the West and the Muslim world.
    That latter effect has not happened, which is a good thing, 
but that could be said to be one of his objectives in terms of 
degrees of arrogance and self-belief. He overreached, it would 
appear.
    The other parts, your comment right at the very end of your 
opening remarks, struck a chord as well, on contrasting 
strengths, and one of the key things that drove bin Laden over 
the years was the American withdrawal from Lebanon and Somalia, 
and he cites this repeatedly in his public statements. In fact, 
when 18 soldiers were killed in Somalia, the Americans left, 
and that to him was a lesson that he took, that Americans prize 
people, Russians prize machines, and between the two of them, 
that was kind of the approach that the extremists took against 
each target.
    With that, I will stop.
    Senator Boxer. I have so many questions, and since I do not 
have any colleagues here, I can ask them all.
    You had the benefit, the FBI did, of a couple of 
defections. Without naming any names--some of them are in the 
public record, because they testified in court--what do you 
take away from these people in terms of how deep does the 
loyalty run to bin Laden, for example? We know that a lot of 
folks would work for bin Laden because they are mercenaries, 
and he is going to pay them. He is going to give them pay, 
going to give them health benefits, if you will, and my 
understanding is some people were upset that he did not come 
through on his promise. So in other words, how much of bin 
Laden's power, if you will, is a real belief in what he stands 
for, his fatwahs, and how much of it is, it is a job and we are 
going to go do this?
    Mr. Caruso. Mr. Wilshere and I will probably take and split 
answers to questions to give you as satisfying a response as we 
can.
    I think you are going to find individuals who run the gamut 
with reference to commitment, and I think that bin Laden 
certainly symbolizes a cause which brings individuals who are 
impoverished and who want to be aligned with something larger, 
and something they perceive to be good and be involved in a 
cause, and so I think you have some individuals who are very 
much committed to the cause, and he is the best symbol in their 
eyes at this time.
    I think from that core group you have concentric circles of 
individuals who have varying allegiances, varying intensities 
in their allegiance to the cause and to him, and then it goes 
all the way out to individuals who are venture seekers and the 
like. That would be kind of the breadth that I would say.
    Mr. Wilshere. In particular, from the former members who we 
have talked to, there is--again you also have several 
generations, because, for example, the Africa bombers were 
people who came out of the Afghanistan jihad era and then the 
Somali fight, whereas the others have come up since then and 
they are younger, but bin Laden first, if you look at him as 
one among several principalities among the Arab jihadists in 
Afghanistan and Chechnya, there was an active assessment 
process and a recruitment process, a collaboration and a 
swapping of resources that went on.
    In the course of this, potential candidates for al-Qaeda 
were sized up and assessed, and at least in the earlier version 
of the al-Qaeda pre-Africa bombings there are very special 
qualities that went with somebody who became a formal member 
who swore allegiance. It is called, giving bayat, who swore 
allegiance to bin Laden.
    Senator Boxer. What does giving bayat mean?
    Mr. Wilshere. It means swearing allegiance, a particular 
kind of oath, but essentially the qualities were, commitment to 
Islamic scholarship--they needed to be able to recite a large 
portion of the Koran from memory--the ability to play nicely 
with others, because one of bin Laden's key contributions to 
the jihadist effort, and one of the reasons why this will 
continue to be an ongoing issue for us for sometime to come, I 
believe, is the ecumenical approach.
    It does not matter if you are a Lebanese or a Palestinian 
or an Egyptian or an Iraqi, if you believe in the cause, that 
is the prerequisite, and a third would be staying power, the 
ability to continue to grow and to develop. Again, you have 
enlisted folk and you have officers, and there are different 
levels of talent and commitment within.
    Senator Boxer. If you were to give me--and I know this is 
not a science. Clearly, we are trying to do the best from all 
of the intelligence that we have, from the defectors, from your 
experience--and I am going to ask the next panel this as well--
the American people are trying to wrap their arms around this 
enemy, if you will. What are we talking about in terms of size, 
and out of that, would we say the top echelon is just a very 
small group? I mean, how many people are we talking about 
worldwide here, and how many of those do we think are at the 
top level?
    I understand this is a guesstimate on this part. Just give 
it your best shot.
    Mr. Wilshere. If I could just characterize a little bit of 
type first, and then I will take a shot at the numbers. First 
of all, you have the al-Qaeda hard core that brought us the USS 
Cole bombing, the Africa bombing, the World Trade Center, very 
particular type of operation, much smaller elite, probably in 
the hundreds perhaps in terms of terrorist capabilities 
probably in the hundreds, but also a lot of the al-Qaeda hard 
core was committed to supporting the Taliban militarily against 
the Northern Alliance, supporting the jihads in Chechnya in 
particular, so you are talking in the thousands, probably, 
small thousands.
    Beyond that you have groups that are less talented, 
perhaps, or their skill level is not yet as high, but who 
certainly have bad intent in improving capabilities, because 
they have been cycled through graduate schools, the equivalent 
of graduate schools in the camps. Those number in the 
thousands, and they are dispersed throughout the world.
    Senator Boxer. You say thousands. Are we talking tens of 
thousands, or are we talking 20,000? I have heard 26,000 as a 
number.
    Mr. Wilshere. I would say in terms of a terrorist threat 
that is probably too high, in terms of the actual terrorist 
part of it. In terms of a supporting community, or in terms of 
the ability to launch, for example, paramilitary or insurgency 
situation in Indonesia, the Philippines, or Malaysia, or 
certainly Tajikistan or the former Soviet Union, you are 
talking in the thousands, but I would not regard all those as 
terrorists, either.
    So in terms of terrorist capability there is a sympathetic 
support group that probably numbers in the thousands, an actual 
terrorist-capable element that numbers in the hundreds, but 
that might be low, but that is what I would say.
    Senator Boxer. Well, that is very helpful to us, because 
that is what I am trying to put my arms around here, what we 
are dealing with.
    Would you agree with that, Mr. Caruso?
    Mr. Caruso. Yes, I would.
    Senator Boxer. Now, knowing what you know, again from the 
people who have talked to you and have come over to our side, 
and I do not know if you have asked this question to these 
people, but the bin Laden tape--and I am trying to put myself 
in the place of someone who was loyal to him, and then you see 
him laughing, because the people who were on the planes 
supposedly did not really know exactly what their mission was, 
and he finds it amusing. Is there--and I was really glad the 
administration chose to let that tape out. I mean, I think it 
was very important.
    Can you make an assessment, just based upon your 
intelligence--I mean, your natural intelligence, as well as 
information you have, as to how that would play with some of 
these people who appear to be educated at the upper level? We 
know some of them are going to say it was doctored, but most 
people looking at that would never say that, it seems to me, so 
what is your sense of how that tape would play with those 
people who are loyal to him up to this point? Do you think it 
would sway them in any way?
    Mr. Wilshere. I would probably look at and interpret the 
tape in a slightly different way, I think, in the sense that 
people who are committed to a cause, particularly if they have 
gone through the training to become suicide operatives, they do 
not necessarily know when they are going to be tapped on their 
shoulder, but they commit to going once they are tapped.
    In terms of operational security, there would be a 
difference between telling them what their specific mission was 
and tapping them on the shoulder to say now is your time, go 
over there, this is it, but we are not going to tell you 
exactly what you are going to do until the last minute, so in 
terms of that, I would see that perhaps as differently than as 
a betrayal of them, and I suspect that those who are 
sympathetic to bin Laden would see it in the same light.
    Senator Boxer. Well, why would he laugh about it, if that 
was par for the course?
    Mr. Wilshere. He was not laughing in terms of playing a 
trick on them so much as it was preserving operational 
security, saying no, we would not tell them until the last 
minute to preserve operational security. It could very well 
have been that it was an uncalculated laugh that, had he known 
it was going to be preserved for posterity, he would not have 
made, you are right, but in terms of----
    Senator Boxer. That is when you learn the truth about 
people, right, when they are off-guard.
    What do you think, Mr. Caruso?
    Mr. Caruso. You asked about the natural thinking about 
this. There is no one that is so blind as they that would not 
see, and individuals who are aligned with him see victory, and 
do not see the kind of detail that you and I see and that we 
find shocking to our conscience.
    Senator Boxer. So would you say he is a very charismatic 
leader?
    Mr. Caruso. He certainly has focused me and energized me.
    Senator Boxer. And he has energized all Americans. I am 
talking about his followers. Would you say that he is a 
charismatic leader, that he has a loyal following, whatever the 
size of it is?
    Mr. Caruso. I believe that he does.
    Mr. Wilshere. His followers who have talked to us say he is 
extraordinarily charismatic. He is the type of person who is 
perceived to be humble. He gets down in the dirt with the 
troops. He clearly puts himself in the line of fire. I am told, 
and I do not know myself, but I am told that he has 
extraordinarily beautiful Arabic, and an idea that just shines 
for them, so yes, he is very charismatic.
    Senator Boxer. OK, having said that now, he is an extremely 
charismatic leader, what happens when we get him, to his 
followers, if he is the charismatic leader that you say he is. 
When we get him, what happens to the organization? Does it 
continue? Does a new leader come up? Because it takes me back 
to the old days of World War II, when there was a big dispute 
about what would happen if Hitler were killed and half the 
people said, oh, it would get worse, because his followers--and 
the other half said, get rid of him, everything will fall 
apart, people are more afraid than they are loyal to him, and 
we know what history shows.
    What do you think happens when you get him?
    Mr. Caruso. Different people have different opinions. This 
is one opinion.
    Senator Boxer. This is all about what you think. This is 
not something that we are saying is gospel, because no one 
knows. I am just trying to get a picture of what you think from 
what you know.
    Mr. Caruso. I think to disrupt and dismantle the 
organization we need to go beyond just one leader and dig down 
into middle management, or at least upper middle management. 
That kind of decapitation works.
    Having said that, however, there is a natural momentum in 
organizations, and although we may reduce the horrific 
consequences by 30 percent, we still have the 70 percent to 
deal with, and I go back to the original, my opening statement 
and what FBI Director Mueller has said and Attorney General 
Ashcroft has said, that we need to keep the pressure on 
worldwide and just continue this fight to really dismantle and 
disorganize.
    Senator Boxer. So you do not see it falling apart when we 
get him?
    Mr. Caruso. I see that there is going to be a stuttering in 
the organization's momentum. The question is, will that stutter 
turn into a pause? I do not know, but there will be a residual 
momentum in the organization that, if we reduce the effort, if 
we reduce the horrific consequences by 30 or 40 percent, 
meaning they do 40 percent less, we still have to deal with the 
50 or 60 percent that it might represent.
    Senator Boxer. Well, let me follow that through and get 
into the terrorists' mind here who work for him, the group that 
is really pretty much on the top. They have seen the response 
of America. I mean, this has been an all-out military response, 
spare nothing.
    Now, you are sitting there, you see this, you see these 
bombs falling, you see what happens, and now bin Laden is, let 
us say, killed. You continue this, is that what you are saying? 
You would continue this, knowing that--is your point that we 
need to stick with it so that it can never rear its head again? 
I think that is what you are basically saying, that we cannot 
just say we have done this, we have stopped it, but we need to 
continue on.
    That is one of the purposes of this hearing, to look ahead, 
and the President has certainly said this, and many of us have 
said this as well, that we cannot risk the fact that this could 
go away. We have got to just keep on tracking it wherever it 
appears. Is that what you are saying?
    Mr. Caruso. I do not believe that we will experience what 
we experienced in 1945, with the V-E Day [Victory in Europe], 
or V-J Day [Victory in Japan]. I think that it is, as the 
President has laid out, a strategy that we must continue on, 
but it is more than just certainly a military approach. It is 
all the tools in the toolbox that the President has actually 
put in place, as just briefly in the diplomatic area, the kind 
of coalition-building that the Secretary of State has been able 
to produce, in the stunning military achievements that 
Secretary of Defense Rumsfeld and Director of Central 
Intelligence Tenet within the intelligence services, our own 
Director Mueller in law enforcement, individual countries who 
are not on the front line in Afghanistan are in the front line 
of their own nations, and just now Attorney General Ashcroft 
has come back from a visit to Europe with key partners there.
    So it is a multiple-level law enforcement as well as the 
military-economic, and the law enforcement breaks out into 
subtools, if you will, financial investigations and the kind of 
vigorous financial effort that is going on there, and 
disruption.
    Senator Boxer. So you agree, regardless of bin Laden's 
fate, that we need to continue on and continue on until we have 
truly stopped this everywhere in the world. That is basically 
what you are saying. You do not think this goes away if he is 
gone.
    Mr. Caruso. Yes. I would ask my colleague, Mr. Wilshere, to 
speak to that.
    Mr. Wilshere. I would agree completely with Mr. Caruso that 
perhaps--I do not know, perhaps 5 years ago had bin Laden left 
the picture, things might have evolved differently, but in my 
view what has happened is, the capabilities and reach of the 
organization have reached critical mass. They had a long head 
start they built, so the campaign against the safe haven in 
Afghanistan is to my mind as important, if not more important 
than the search for bin Laden and his top two leaders, because 
of the capability that those safe havens represented.
    I have seen an estimate that somewhere between 70 and 80 
dozen people have moved through the training camps there, and 
out to who knows where. The large majority of those people have 
probably had their late teen adventure and will go on to become 
normal citizens, but for that group that decides they want to 
pick this up as a way of life, that is a serious, serious 
worldwide threat, as has been demonstrated, so yes, I would 
agree that it is a really important campaign.
    Senator Boxer. That leads me to my last question for this 
panel, and then we will bring up the next. No safe haven, that 
is basically your message to us. We can have no safe haven, and 
Afghanistan was the safe haven, and it is clearly not open to 
them, and we have got to just follow all of the safe havens, 
wherever the path may lead us.
    And that takes me to--and I know you do not like to call 
this a training manual, or a manual, because it is a bunch of 
papers, but we have them all together here, and one of the 
pages talks about the following security precautions should be 
taken into account during training, and they list 13 things. 
They say, the place should have the following specifications.
    Distance from the population areas with the availability of 
living necessities, availability of medical services during the 
training. The place should be suitable for the type of 
training, physical fitness, shooting and tactics. No one except 
the trainers and trainees should know about the place. The 
place should have many roads and entrances. The place should be 
visited at suitable times. Hiding any training traces 
immediately after the training, guarding the place during the 
training. Appropriateness of the existing facilities for the 
number of training members. Exclusion of anyone who is not 
connected with the training. Taking all security measures 
regarding the establishment. Distance of the place from police 
stations, public establishments, and the eyes of informants, 
and last, the place should not be situated in such a way that 
the training and trainees can be seen from another location.
    Now, are these camps, as far as you know--where are these 
training camps? Do we have a sense that any could be in the 
United States?
    Mr. Wilshere. I think that they have looked at--not 
necessarily the bin Laden people, but other people related to 
jihadist training have looked at the possibility of setting up 
camps in the United States.
    I think logistically and security speaking they found it 
perhaps more benign in Europe to do this, and kind of the very 
introductory training facilities perhaps, where they would have 
the broomsticks and what-not, could occur--for example, several 
of the people who were involved on the attack side in the 
kidnapping in Yemen of some Western tourists, where some 
British citizens were killed, and I think an American citizen 
was also killed, several of those people were British citizens 
who had started their training in the U.K.
    Senator Boxer. So we do not really know where these 
training camps are. We certainly know they were in Afghanistan.
    Mr. Wilshere. In Afghanistan there is a pretty good idea of 
where they are. Right now, they are going through them, but 
other than Afghanistan the military training and the more 
advanced training, they gravitated toward Afghanistan. There 
were also some in South Lebanon, probably, that they used, in 
the refugee camps, perhaps, but not large-scale.
    Senator Boxer. Because it does not fit the criteria. It has 
to be far away from everyone who is not a member. I am assuming 
they stick to these--they do not compromise on these 13. One of 
them says it has to be completely isolated, and I just 
wondered, could we use our satellite capabilities and those 
kinds of capabilities to track these kinds of camps, now that 
we have this document and we know what they are doing, because 
that seems to me to be something worthwhile.
    Mr. Caruso, can you comment on that, or can you not comment 
on that? I do not want to compromise anything.
    Mr. Caruso. Thank you. I would recommend that some other 
agencies talk to you about that in a private setting. I think 
you would get a very satisfying answer.
    Senator Boxer. I do have one last question. One of my 
constituents, Mr. Sabero, was killed by Abu Sayyef rebels in 
the Philippines, and I wonder if you feel there are ties 
between Abu Sayyef and al-Qaeda, and is the FBI working with 
the Philippines to combat terrorism?
    Mr. Wilshere. Certainly, what was noticeable when Abu 
Sayyef group kidnapped the first lot of European tourists that 
did not include an American, that they looked like they tried 
to get some Americans and missed. Their demands were very 
focused on people who were in prison in the United States for 
Islamic terrorism, the blind sheik, Ramsi Yussef and that 
crowd. It is not something that would be typical of a very 
small, rural Filipino Muslim independence movement, so there 
was an outside influence there.
    There is more than likely some consulting that goes on, and 
they have probably trained in Afghanistan, some of them, so it 
is a reasonable suspicion.
    Senator Boxer. Mr. Caruso.
    Mr. Caruso. We are working with the Philippine authorities 
on the particular matter that you mentioned, and I would if I 
may just leave it at that, but we are engaged.
    Senator Boxer. Well, I want to thank you for coming very, 
very much, and tell Mr. Chertoff he sent me two terrific 
people, and I am very grateful for that. Thank you.
    Now we are going to ask our second panel to come forward, 
and you are welcome to stay and listen to the next panel, but 
if you have things to do like what I think you have to do, you 
had better go do it.
    The second panel consists of Mr. Larry Johnson--he is the 
CEO of Berg Associates, an international consulting firm. 
Previously, Mr. Johnson was the Deputy Director of the State 
Department Office of Counterterrorism, and he also worked for 
the Central Intelligence Agency, and also Ms. Michele Flournoy, 
senior advisor for the International Security Program at the 
Center for Strategic and International Studies. Ms. Flournoy 
has written a book called, ``To Prevail, an American Strategy 
for the Campaign Against Terrorism.''
    We are very happy to have you here, and Mr. Johnson, why 
don't you begin, and I think you know what I am trying to get 
for the record and for the American people is the sense of 
taking a moment's time out from what is happening right now, 
and looking a little bit ahead, and where we go from here, so 
please go right ahead and edify us.

   STATEMENT OF MR. LARRY C. JOHNSON, FORMER DEPUTY DIRECTOR 
 (1989-1993) OFFICE OF COUNTERTERRORISM, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Johnson. Thank you for having me today, Senator Boxer, 
and I submitted my statement, and presumably it will be 
included in the record. I can tell you a first-hand story of an 
experience that I had in Panama in the Colon Free Zone to 
illustrate some of the issues that were brought up.
    I agree with everything that the FBI colleagues expressed 
beforehand. The al-Qaeda network exists. They have sympathizers 
around the world, but they are not these Islamic supermen that 
can go anywhere, do anything, anytime that they want. They are 
human beings. They face the same kind of limitations that every 
other human being does, and as someone who has been involved 
with scripting counterterrorism exercises for the U.S. military 
forces that have that mission, I know what it takes to put 
those folks in motion and to get them from point A to point B, 
and it is not easy. It is not something you do at a snap of the 
fingers. They can do it fairly quickly, but you have an 
enormous amount of resources dedicated to that task. These 
terrorists fortunately do not have those kinds of resources. 
They do not have their own military airlift command. They do 
not have their own logistics support agency.
    Twelve years ago, I was involved in Central America, doing 
an investigation into product counterfeiting that was taking 
place against a U.S. company, and one of the individuals that 
we discovered--he is not an al-Qaeda member, but he is involved 
with radical Palestinian groups that are involved with 
terrorism. The person we found selling the stuff was named 
Waleed Sayeed Mazees, and he was out in San Francisco at one 
point, I think you will be happy to know.
    When we busted him for selling these counterfeit products, 
the local Panamians working with me said this guy is a 
terrorist, did you know that? I said, no. They said, and he 
also went to jail for money-laundering, and in this book that 
he wrote--it is in Spanish--Palestine, the ``Burning Silence,'' 
he details his secret entries into Palestine to meet with 
members of the Palestinian Islamic Jihad and some other groups.
    The reason I raise him is, you find right now throughout 
Latin America, particularly in the Colon Free Zone of Panama, 
in a little town up in the Guajira Peninsula of Colombia called 
Maicao and down on the triborder area, in the Cuidad Del Este, 
which is on the border of Paraguay and Brazil, with Argentina 
close, there are networks of good Muslims and there are also 
networks of people affiliated with radical Islamic groups such 
as Hezbollah, some Hamas ties, and people with sympathies with 
al-Qaeda.
    What makes these potentially of concern, and I can cite the 
case of Argentina in particular, you have radical groups that 
sympathize with the Muslims that also have some ties with neo-
Nazi groups and that have ties with right-wing groups up here 
in the United States. Now, fortunately, none of those groups 
have been willing to carry out attacks against the United 
States, but these groups exist, they are there, they are 
operating, and when you look at the case of Argentina, I led a 
U.S. team when I was with the State Department to Buenos Aires 
in the aftermath of the bombing of the Israeli Embassy back in 
1992, and to this day there is some suspicion that elements of 
Argentinian intelligence were involved, or at least were 
sympathetic in helping facilitate the activities of groups like 
Hezbollah.
    In dealing with al-Qaeda--and this goes back to a question 
you raised earlier--I hesitate to draw the parallel, but I 
will, because the parallel is humorous and al-Qaeda is not, but 
they have taken on a bit of the persona of the Black Knight 
from Monty Python's ``Holy Grail,'' while as you are lopping of 
limbs the individual continues to want to fight, to make the 
most outrageous threats.
    We need to take their threats seriously, there is no doubt. 
As illustrated by the videotape of last week, bin Laden 
believes what he says. It may be delusional when he cites that 
they have had more people join Islam since the bombing on 9/11, 
or the murder on 9/11 than in the previous 11 years. I mean, 
that is delusional.
    It is almost borderline psychotic, because it is not true, 
but I am sure he sincerely believes it. He tells his followers 
that, and he has enough sycophants around him that will nod 
their head, say yes, you are absolutely correct, and yet 
without him--he has not recognized the ability to see that in 
the streets of Islamabad, in the streets in Indonesia and 
Malaysia, in significant countries around the world with Muslim 
populations, millions were not going into the streets to say, 
we support bin Laden.
    They were staying at home. They were voting with their feet 
by not getting out in the streets, and that is an important 
point, because in lopping off these arms of the al-Qaeda 
movement we are sending a very important message, and I think 
over the short term it is going to be very difficult for them 
to reconstitute.
    But that brings me to a final point, and I will wrap up 
here and turn it over to Michele. State sponsorship is 
critical. There have been some in the past that have argued 
that bin Laden and al-Qaeda represent a new kind of terrorist 
that is independent of state sponsorship. That is total 
garbage. We are realizing that when we are looking at what is 
going on in Afghanistan.
    Without those training camps and those places to feed 
people, house them, teach them how to shoot--no one is born 
knowing how to shoot or build a bomb, and particularly when you 
are talking about building bombs, that is something that takes 
practice. If you go home with your own recipe book more often 
than not you are going to blow yourself up before you kill 
someone else. You have to practice these skills, and these are 
perishable skills.
    As we take care of Afghanistan, the one target that I never 
really understood why we would not go after, at least in a 
concerted effort diplomatically first, is Lebanon. Apart from 
Afghanistan there is no other country in the world, not one, 
that has as many terrorist training camps, as many activist 
terrorist groups and terrorists that have killed, up to 9/11, 
more Americans than any other group in the world.
    The folks who murdered U.S. Navy diver Robert Stethem and 
CIA station chief Bill Buckley, and Marine Colonel Rich 
Higgins, and the 241 marines and former CIA colleague Mr. Ames 
as well as other members of the U.S. Embassy--I mean, the list 
goes on, and we have allowed Lebanon a pass, and that must come 
to an end, because what we learned--it took us a while to learn 
it during the cold war, is that these groups, without the 
sponsorship of a state, cannot function, and we have seen some 
pretty effective results.
    Libya, as a case in point, has really substantially backed 
out of the terrorist sponsor game, in part because they got 
bombed, in part because we kept coming after them with 
international sanctions, and because the world community was 
finally willing to unite against them, and even Khadafi gave 
up. He forced Abu Ibraham, a bomber from the battle days, out 
of his country.
    We also saw in the case of Syria, when Turkey mobilized its 
forces on the northern border of Syria, threatening to invade 
because Syria was harboring a terrorist leader by the name of 
Abdullah Ochalan, Syria got rid of the guy, and the Turks 
ultimately captured him.
    And I will stop there.
    [The prepared statement of Mr. Johnson follows:]

Prepared Statement of Larry C. Johnson, former Deputy Director, Office 
                of Counterterrorism, Department of State

    I am pleased to appear before this subcommittee today to discuss 
the global threat posed by Osama bin Laden's Al-Qaeda network and the 
steps the United States should take to neutralize this threat. I have 
worked on the issue of terrorism in several capacities during the last 
22 years--as an academic at the American University, as an analyst at 
the Central Intelligence Agency from 1985 to 1989, and as a policymaker 
in the U.S. Department of State's Office of the Coordinator for Counter 
Terrorism. Since leaving the State Department October of 1993 I have 
provided consulting services on terrorism issues to the U.S. 
Government. My work has included an analysis of the U.S. Government's 
databases on chemical and biological agents and scripting terrorism 
exercises for the U.S. military.
    As we press the attack against bin Laden and his Al-Qaeda network, 
we must not lose sight of the fact that international terrorism cannot 
prosper without the support of one or more state sponsors. No one is 
born with the knowledge of how to build bombs, use a pistol, conduct 
surveillance, or hijack airplanes. These are skills that must be taught 
and practiced. Guns, bullets, and explosives do not grow on trees. They 
have to be purchased. If you are going to train people to conduct 
terrorist operations you have to have a place or places for the 
training. Ranges for shooting guns and detonating explosives are 
essential. The people being trained also need a place to sleep and 
something to eat. All of this requires money.
    During the Cold War, the Soviet Union and its proxies bank rolled a 
variety of Marxist-Leninist groups that attacked U.S. interests around 
the world. They also provided training and protection against 
retaliatory strikes. When the Soviet Union collapsed, many leftist 
terrorist groups also disappeared or curtailed their activities. 
Without a source of funding and a safe place to live and train, many 
terrorist groups, such as the Japanese Red Army, the National Marxist 
Leninist Front (FMLN) of El Salvador, and the Red Army Faction, found 
it impossible to continue operating.
    While Al-Qaeda differs in many respects from the groups that 
attacked the United States during the cold war era, it also has 
required the support of several states in order to carry out its 
operations. The biggest booster was Afghanistan, which provided bin 
Laden and his followers a place to live, plan, train, and organize. 
Also implicated, albeit indirectly, are Saudi Arabia and Pakistan. 
Prominent citizens of these countries have provided money to bin Laden 
and facilitated the movement of Al-Qaeda personnel in and out of 
Afghanistan.
    The threat posed by the Al-Qaeda network is particularly dangerous 
because they do not appear to be constrained by a desire to forge 
political coalitions or rally public opinion. Instead, they are 
embarked on a holy mission and are prepared to do anything to achieve 
that goal. According to the Al-Qaeda Manual, which was discovered by 
Manchester England's Metropolitan Police, bin Laden warns his disciples 
that:

          The confrontation that we are calling for with the apostate 
        regimes does not know Socratic debates . . . Platonic ideals . 
        . . nor Aristotelian diplomacy. But it knows the dialogue of 
        bullets, the ideals of assassination, bombing, and destruction, 
        and the diplomacy of the cannon and machine-gun. . . . Islamic 
        governments have never and will never be established through 
        peaceful solutions and cooperative councils. They are 
        established as they [always] have been by pen and gun, by word 
        and bullet, by tongue and teeth

    Al-Qaeda marks a distinctive departure from the attitude and 
actions of other radical Islamist movements. Even groups like Hamas and 
Hizbollah, who are guilty of heinous attacks against U.S. citizens, in 
recent years have shied away from direct attacks on the U.S., choosing 
instead to use the United States as a fund raising base.
    The threat posed by bin Laden and the Al-Qaeda network predates the 
attacks of 11 September 2001. In the eleven years preceding the attacks 
on 11 September 107 American's were murdered in international terrorist 
incidents (1990 thru 2000). Bin Laden and the Al-Qaeda network were 
implicated in 81 of these deaths. The death toll includes the first 
attack on the World Trade Center in 1993, the bombing of the U.S. 
military housing complex in Dahran, Saudi Arabia, the bombing of two 
U.S. embassies in East Africa in August of 1998, and the bombing of the 
USS Cole in Yemen in October of last year.
    The targets hit by bin Laden during the past decade are consistent 
with the objectives identified in the Al-Qaeda Manual:

          The main mission for which the Military Organization is 
        responsible is the overthrow of the godless regimes and their 
        replacement with an Islamic regime. Other missions consist of 
        the following:

          1. Gathering information about the enemy, the land, the 
        installations, and the neighbors.
          2. Kidnapping enemy personnel, documents, secrets, and arms.
          3. Assassinating enemy personnel as well as foreign tourists.
          4. Freeing the brothers who are captured by the enemy.
          5. Spreading rumors and writing statements that instigate 
        people against the enemy.
          6. Blasting and destroying the places of amusement, 
        immorality, and sin; not a vital target. (sic)
          7. Blasting and destroying the embassies and attacking vital 
        economic centers.
          8. Blasting and destroying bridges leading into and out of 
        the cities.

    While acknowledging the international threat posed by Al-Qaeda, we 
should also admit they have not demonstrated the ability to strike at 
will. There is no doubting their desire to attack U.S. targets and kill 
U.S. citizens, but desire is not enough. They also need trained 
personnel, adequate financial resources, and a vulnerable target. The 
Al-Qaeda attack against the U.S. Embassy in Kenya in August 1998 
demonstrated that no matter how committed the terrorist is their 
ability to achieve their objectives can be thwarted by security 
practices and technologies. The refusal of U.S. Embassy security guards 
to open a gate and provide the terrorists access to the parking garage 
prevented much greater loss of life by U.S. citizens.
    Most of the terrorist attacks directed against the United States 
last year (and this year as well) were not carried out by Al-Qaeda. 
Colombia was the site of most anti-U.S. attacks, accounting for 186 out 
of the 423 incidents recorded in the year 2000. These were directed 
against oil pipelines managed by U.S. and British companies. 
Fortunately, the Colombian terrorists generally shied away from causing 
international casualties and no U.S. oil workers in Colombia were 
killed or injured last year.
    While not engaging in many attacks, Al-Qaeda terrorism caused all 
of the U.S. fatalities. Apart from the attacks in Colombia, there were 
seventeen other incidents that harmed U.S. citizens or interests:

  - Eleven kidnappings involved one or more U.S. citizens. Seven of 
        these involved U.S. companies--Haliburton, Shell, Chevron, 
        Mobil, Noble, and Erickson Air-Crane.
  - Five bombings killed or injured U.S. citizens or caused property 
        damage. Terrorists tied to bin Laden bombed the USS Cole 
        killing 17 and wounding 39. A bomb at a McDonalds in France 
        killed one. The other explosions--outside the U.S. Embassy in 
        the Philippines, at a Citibank in Greece, and in the offices of 
        PT Newmont Mining in Indonesia--caused property damage and no 
        loss of life.
  - Vandals trashed a McDonalds restaurant in South Africa.

    Groups linked to Al-Qaeda, which received training at bin Laden 
sponsored camps in Afghanistan, carried out significant attacks in 
India last year and are continuing their campaign of terror. Almost one 
of every five international terrorist attacks in 2000 occurred in 
India. India accounted for almost 50% of all deaths (187) and injuries 
(337) from terrorist attacks during 2000. The culprits included the 
Harakat-ul-Ansar and the Lashkar Tayyiba, which have been trained in 
Afghanistan and protected by Pakistan.
    Terrorist attacks in India and in Washington, DC and New York were 
facilitated by groups that received tacit, if not full, support of at 
least one country. Regretfully, the U.S. record in identifying and 
punishing states that sponsor terrorism has been inconsistent. In the 
past we have placed some countries on the black list and applied 
economic and diplomatic sanctions. In other cases we have ignored 
evidence of sponsorship, Pakistan and Greece are two examples, because 
of bilateral policy concerns. I hope that our campaign in Afghanistan 
marks a watershed and sends a clear message to the rest of the world 
that the United States will no longer tolerate or excuse any nation 
that sponsors, directly or indirectly, terrorism.
    In dealing with the immediate threat posed by Al-Qaeda we 
inevitably will require the support of countries like Pakistan, Yemen, 
Sudan, Saudi Arabia, and Somalia where these terrorists have families 
and friends. Of these four countries only Sudan is currently listed by 
the U.S. Government as a terrorist sponsor. These countries must 
understand there is no middle ground in tracking down and detaining 
these terrorists. Preventing these individuals from reconstituting 
their capabilities and developing new terrorist schemes will require 
bilateral cooperation, clandestine intelligence operations, and 
targeted military special operations.
    We also need to rethink and reenergize our policy for dealing with 
the other countries currently listed as state sponsors of terrorism--
Iran, Iraq, Libya, Syria, Cuba, and North Korea--as key backers of Al-
Qaeda. Of the five, Iran and Syria are the most active in providing 
support to groups that are more active than Al-Qaeda and almost as 
lethal. This includes groups such as Hamas, Hazbollah, and Palestinian 
Islamic Jihad. These groups are backed by Syria and Iran and operate 
freely from Lebanon's Bekaa Valley.
    Lebanon, which is also not listed as a state sponsor of terrorism, 
came up on the radar with a remarkable piece of intelligence made 
public in October 2000. On October 20, the United States District 
Court, Southern District of New York, accepted a guilty plea from Ali 
A. Mohamed, an Egyptian-born former U.S. Army green beret sergeant, and 
one of six men indicted in the U.S. for the bombings of the U.S. 
embassies in East Africa in 1998. Mohamed not only confessed that he 
took part in a conspiracy to murder U.S. citizens in Somalia, Saudi 
Arabia, and East Africa, but he tied the assaults directly to Saudi 
exile Osama bin Laden. Mohamed's confession also linked bin Laden with 
another terrorist-at-large--a murky man whose American victims over the 
last two decades far outnumber bin Laden's--Hezbollah security chief, 
Imad Mughniyeh.
    Prior to 11 September, Mughniyeh and Hezbollah had killed more 
Americans in international terrorist attacks than any other group. Two 
hundred sixty Americans and 116 foreigners died in the bombings of the 
U.S. Embassy and the U.S. Marine barracks in Beirut in 1983, operations 
believed to have been carried out by Mughniyeh. He was also behind the 
1985 hijacking of TWA 847 and the murder of U.S. Navy diver, Robert 
Stethem, a passenger on that flight. And Mughniyeh is believed to have 
masterminded the kidnapping of more than 50 hostages in Beirut, 
including CIA Chief William Buckley and U.S. Marine Colonel Rich 
Higgins, both tortured and murdered while in captivity. Mughniyeh has 
not limited his terror to American targets. He has been implicated in 
the bombings of the Israeli installations in Argentina in 1992 and 
1994, and more recently, in a terrorist rocket attack against the 
Russian Embassy in Beirut.
    The importance of Ali Mohamed's confession is not just that it 
represents the first credible, public evidence that Mughniyeh and bin 
Ladin have been collaborating, but that Iran has been backing them. 
Mohamed gave sworn testimony that between 1991 and 1993, he handled 
security arrangements for a meeting between Mughniyeh and bin Ladin 
where they established their common goal of forcing the U.S. to 
withdraw from the Middle East. According to Mohamed's testimony, bin 
Ladin was inspired to replicate Mughniyeh's success in compelling the 
withdrawal of U.S. forces from Lebanon in 1984, following the bombings 
of the U.S. Embassy and the Marines barracks in Beirut. Mohamed's 
testimony also adds authority to a media report that Iran's Ministry of 
Information and Security convoked a terrorist conclave in Tehran in 
1996 that included Mughniyeh and a senior aide to bin Laden.
    Mughniyeh and bin Laden are the two most prolific mass murderers 
currently at large. Their networks extend beyond the Middle East and 
include contacts and supporters in places like the Philippines and 
Paraguay/Brazil/Argentine border in South America. Our policies to deal 
with these threats must be tailored to the local conditions. In the 
Philippines three groups--Abu Sayyef, Moro Islamic Liberation Front, 
and Moro National Liberation Front--are active in remote areas in the 
south and have attacked and killed Americans. The Philippine military 
and police would definitely benefit from direct support by U.S. 
military Special Forces.
    The tri-border area of South America, in the city Ciudad del Este, 
offers a different challenge. Unlike the terrorist camps in 
Afghanistan, this area is a commercial center characterized by drug 
smuggling, contraband cigarettes and liquor, counterfeit merchandise, 
and stolen vehicles. It is the wild west of organized criminal 
activity. But this area reportedly also was used by Imad Mughniyeh to 
plot bombings in Buenos Aires of the Israeli Embassy (1992) and the 
Jewish Cultural Center (1994). Shutting down operations in this area 
require a close integration of law enforcement and intelligence 
operations.
    A key to preventing and deterring future terrorist attacks is to 
ensure that the world enforces a zero tolerance policy when it comes to 
sponsoring terrorism. While we may never be able to eliminate or 
neutralize every terrorist cell willing to murder innocent civilians, 
we know from experience that these cells cannot thrive without the 
support of a state. From the horror and ruin of September 11 we have an 
opportunity to start afresh with a more sharply defined set of 
terrorism goals--we have made a good start going after bin Laden and 
his protectors--and bring the full, coordinated force of American 
diplomatic, military, and intelligence capabilities to bear on the 
problem.

    Senator Boxer. Thank you. You gave us some very good 
information. We appreciate it.
    Michele Flournoy, welcome. Thank you very much.

      STATEMENT OF MS. MICHELE FLOURNOY, SENIOR ADVISOR, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
             INTERNATIONAL STUDIES, WASHINGTON, DC

    Ms. Flournoy. Thank you, Madam Chairman. Thank you for the 
opportunity to speak to you this afternoon. I have submitted 
the findings and recommendations of our book,\1\ ``To 
Prevail,'' as my formal prepared statement, but if I could I 
would just like to take a few minutes to address the question 
you raised about next steps.
---------------------------------------------------------------------------
    \1\ The book can be be purchased on-line by visiting the Center for 
Strategic and International Studies' website: www.csis.org
---------------------------------------------------------------------------
    I think to answer the question about next steps, we have to 
go back to our primary objectives in this war, in this long-
term campaign, and I would argue that there are four. 
Obviously, the first is to try to defeat and destroy terrorist 
organizations like al-Qaeda with global reach who are aiming to 
attack us. Second is to diminish and end state sponsorship of 
such groups where it occurs. Third is to enhance our homeland 
security, and fourth, I would argue, is to try to address some 
of the conditions that create fertile soil for such terrorism 
to take root and grow. This is really a part of the debate 
where we have not had extensive discussions yet, and it is a 
part of the discussion where I feel this committee has 
particular strength to move into.
    When I talk about the conditions, I want to be clear that 
we are quite categorical in the work we did at CSIS in saying 
there is nothing that justifies or excuses what happened on 9/
11, but you can identify conditions that allowed the terrorists 
to get recruits, allowed them to get money, and allowed them to 
get sympathy in certain quarters of the world, and those are 
conditions that our foreign policy needs to address over the 
very long term.
    So, next steps. In my mind, the No. 1 priority is to 
continue the campaign against al-Qaeda. Al-Qaeda is anything 
but a hierarchy. It is a truly global network. It is akin to a 
multiheaded hydra. While we are succeeding in chopping off one 
head in Afghanistan, it does not keep the rest of the organism 
from functioning. So I think first and foremost is continuing 
intelligence cooperation, law enforcement cooperation, 
financial cooperation to track and choke off money supplies to 
close down cells or severely hamper the operations of cells in 
Europe, in the United States perhaps, still, in the Middle 
East, in Asia. That has to remain our first priority in this 
campaign as we go forward.
    Second, I think we need to turn our attention to other 
states who have provided some sort of support, direct or 
indirect, to groups like al-Qaeda, and to pressure them--in 
each case I think it will require a different mix of 
instruments, but I think that is a second key set of steps.
    And third is to go back to this issue of addressing the 
underlying conditions, and here I am really talking about four 
key areas. The first is, I think we have to address the 
question of failed states, not just from a humanitarian 
impulse, now, but from a strategic perspective. If we allow 
failed states to fester unaddressed for long periods of time, 
many of them will become, some of them have become sanctuaries 
that terrorists use to operate, they use to recruit, train, et 
cetera. I think we have to address that issue more 
strategically as part of our foreign policy.
    Obviously, the first test case is going to be what we do 
with Afghanistan once the fighting stops. If we do not take 
post conflict reconstruction seriously in Afghanistan, I would 
argue that we will risk being back there within a decade doing 
the same thing over again. We have to care, not about building 
the perfect democracy in Afghanistan--that is not a realistic 
goal--but about restoring a measure of a functioning state and 
stability in that country.
    I think we also need to look at other failed states and ask 
the same question, if they are, in fact, providing sanctuary 
for terrorists.
    A second element is, I think we need to reexamine our 
Middle East strategy, and here I want to build on what was said 
in the first panel, that the United States is an object of deep 
resentment in some populations like in Saudi Arabia, like in 
Egypt, because we are perceived as supporting governments who 
are not as responsive as they should be to the needs of their 
populations.
    I think the United States needs to use its very close 
relationships with those governments to pressure them to 
modernize, to create more real economic opportunities for their 
populations, to create real opportunities for political 
participation in those societies. Again I am not talking about 
supporting American-style democracies, but I am talking about 
modernization in a way that creates outlets for a whole 
generation of people who have no other alternative but to turn 
to extremism and violence.
    The second thing I think is untenable is that these close 
allies of ours have, in the past, turned somewhat of a blind 
eye to activities and financing of extreme groups on their soil 
as long as the violence was directed outside their borders. 
That is no longer a tenable position for those countries to 
take, and I think again we need to leverage our relationship to 
try to work toward changing some of the conditions that are 
fueling discontent that creates the conditions where a group 
like al-Qaeda can gain recruits and so forth.
    A third element is our foreign assistance, a very, very 
powerful instrument that I would argue we are not using as well 
as we could to support our foreign policy objectives. As you 
all know, our foreign assistance goes primarily to two 
countries. There are more than 100 earmarks on the foreign 
assistance. Eighty cents on the dollar actually goes through 
U.S. companies.
    There are lots of problems with that budget, and I would 
argue if we are going to get serious about economic and 
political development that changes the conditions, that really 
does drain the swamp that terrorism thrives in, we need to use 
our foreign assistance much more strategically. I will give you 
one example, educational reform. Right now, a whole generation 
of young boys in certain Middle Eastern states are going 
through these madrasses and being indoctrinated into jihad 
because they have no other way to feed themselves, they have no 
other way to clothe themselves, they have no other way to get 
an education, if that can be called an education. Investing 
some money in helping to build a real educational system and 
real economic opportunities for that generation would be one 
that would pay off, I think, in the long term.
    Senator Nelson. Madam Chairman, might I ask what particular 
countries are you thinking of? Pakistan is certainly one.
    Ms. Flournoy. I am thinking primarily of Saudi Arabia, 
Egypt, and Pakistan, but you could certainly add others to the 
list. Those are the big three, in my view.
    Senator Nelson. And how could you, with the incentive of 
foreign assistance, get--take, for example, Pakistan, to 
suddenly clamp down on these religious schools where these 
children are getting this kind of extremist education?
    Ms. Flournoy. I think one of the questions we have to ask 
is whether we want to funnel all of our foreign assistance 
through governments, or whether we want to invest more directly 
in civil societies and through nongovernmental organizations, 
through other groups that will buildup educational structures 
and so forth.
    It is not clear in every case that funneling the money 
through the government is the right answer. I think obviously 
we need to look at it on a case-by-case basis, but I think in 
some cases giving the government more money will not be the 
right answer, but you may want to look at alternatives, 
particularly in the area of education, in my view.
    Senator Nelson. That was Saudi Arabia, Pakistan, and what?
    Ms. Flournoy. Egypt. Those are the main three I would 
highlight, although there would be others.
    If I may, the fourth and final area that I would encourage 
you to look at is the whole question of public diplomacy. I 
believe that over the last decade or more the mechanisms that 
allow us to get our message out in key parts of the world, 
particularly the Middle East, have atrophied severely, so that 
even when we are doing the right thing, even when U.S. troops 
are saving Muslims lives in Bosnia, when the United States is 
the No. 1 food donor to Afghanistan before the war, and you can 
go on with this list of facts that no one can dispute, the 
message does not get out. I think part of that is that we 
really do not have the kinds of mechanisms that we had in the 
cold war to get that message out, and so I would urge you to 
take a look at that as well.
    Thank you.
    Senator Boxer. Well, there are many questions. I would say, 
Ms. Flournoy, that I followed everything you said. I would just 
take exception with one thing, and I want to get into a little 
discussion before I turn to Mr. Johnson.
    You say that if we were to change our Middle East policy, 
and you use the word, help countries like Saudi Arabia 
modernize is what was said, that that would help. I honestly do 
not think so. I mean, I think we should do that, do not get me 
wrong, because Saudi Arabia needs to modernize, but the last 
thing al-Qaeda wants, and the fundamentalists want, is to see 
Saudi Arabia modernized. They want them to become more 
religious and more fundamentalist, and so I do not think we 
should delude ourselves. I mean, these countries are certainly 
not perfect, and we went in to help Kuwait and did the right 
thing, but the bottom line is, though, they do not have a 
perfect government either, and I do not think if we suddenly 
changed their government, then you would find al-Qaeda going 
away. I think it is a little--I just do not think it is real. I 
wonder if you could respond.
    In other words, if tomorrow we just said the United States 
is changing its foreign policies, we are going to help Saudi 
Arabia modernize--what were the other countries?--Egypt to 
modernize, and----
    Ms. Flournoy. Pakistan.
    Senator Boxer. And Pakistan modernize, that suddenly al-
Qaeda would go away. I think it would be in a way worse for us, 
because I think they would say, why are you interfering, we do 
not want them modernized, so I am a little confused. Maybe the 
word modernize is the wrong word, or we are not communicating.
    Ms. Flournoy. I think maybe modernize is not as specific as 
I need to be. In the case of Saudi Arabia, I think the issue is 
not so much economic development, because I think the average 
citizen enjoys quite a good standard of living, comparatively 
speaking. The issue is political participation. People feel 
they have no voice, and they feel they are living under a 
government that does not represent their interests, and so in 
Saudi Arabia the issue is political. If you do not want to call 
it modernization, political participation, creating avenues for 
participation to give people----
    Senator Boxer. You mean a democracy?
    Ms. Flournoy. More democratic, whether it is--it does not 
have to be democracy as in our system, but something that is 
moving in that direction, to allow people forms of political 
participation that are real.
    In the case of Egypt, then you add on the economic 
dimension. There is real poverty for the majority of the 
population in Egypt, and there we are talking about not only 
political participation but also real economic development to 
create opportunities.
    Part of this is the demographics. You have countries where 
their populations are becoming more than 50, 60 percent under 
the age of 25. Very few people have prospects, any hope of 
employment in their lifetimes, very little opportunity to 
participate economically or politically. They are very 
frustrated, so they turn to groups that offer them some sense 
of meaning and cause. I think we need to create alternatives. I 
think one of the best measures of success long-term could be a 
whole generation of young men turning away from groups like al-
Qaeda to participate economically and politically in their 
societies and in making them better.
    Senator Boxer. Mr. Johnson, I wanted to ask you if you 
agreed with that part of Ms. Flournoy's presentation. I agreed 
with everything else but that point. I just do not see it.
    Mr. Johnson. I do not represent myself as an Arab expert, 
but a very good friend of mine is one of the preeminent ones in 
the world, and in one of those private conversations we had a 
few weeks back with a couple of other folks he said, look, the 
reality is if we had democracy in some of these Middle Eastern 
countries we would not like the results, because where a lot of 
the mass population is politically would be against the very 
things we are trying to prevent.
    And the problem with these societies, there is some genuine 
discontent in there, but the discontent that exists is not the 
result of U.S. actions and policies, and maybe we can be 
accused of being a facilitator for some of these governments 
where they have continued to persist in their policies, but 
they themselves are not always in touch with reality.
    I appeared a couple of weeks ago with Adel al Jubeir, who 
is the right-hand man to Crown Prince Abdullah in Saudi Arabia, 
and I had what we used to call in diplomatic parlance a frank 
exchange of views, saying look, the Saudi Arabians need to 
understand that U.S. citizens have now reached a level that we 
are not tolerant of you playing both sides of the fence. You 
cannot tell us you are our friend and then send money to these 
murderers, and then you guys run off and go whoring in London 
and then come back and try to be the defenders of Islam.
    I said, that does not wash any more, because we have got 
3,000 dead Americans. My people, who most of whom came from 
Saudi Arabia, and instead of you being friends, instead of you 
stepping up and saying, let us find every way we can to 
cooperate, you acted like defense attorneys. You cooperated in 
the fullest sense of the law term, but we had to drag it out of 
you piece by piece. You were not being proactive as friends.
    And he said to me, he said, well, why doesn't anyone else 
in this administration--and he says, you are not the 
administration, but why isn't the government saying this to me? 
I was over meeting with Secretary Armitage. He did not tell me 
that. And I said, well, they should, and part of the problem is 
because they are not hearing that kind of message from the 
administration, it is not just this administration, it has been 
every administration, and consistently from the Senate and the 
House, they run away with this impression that this is just a 
temporary tempest in a teapot that is going to blow over, and 
they get away with it.
    Senator Boxer. Very interesting.
    Ms. Flournoy, do you agree with Mr. Johnson that Lebanon is 
a place we need to look in terms of state-sponsored terrorism, 
because you said that was the second thing we had to stop, was 
state-sponsored terrorism. Do you agree with his assessment 
that Lebanon is one of the worst offenders here?
    Ms. Flournoy. Not related to al-Qaeda, but related to other 
groups, yes. If we are going to broaden our scope beyond al-
Qaeda to look at other groups that have the potential to damage 
our interests, I think Lebanon is certainly on the list.
    Senator Boxer. What other states do you see on the list?
    Ms. Flournoy. I would say Yemen, I would say the 
Philippines, I would say parts of the Caucasus, and I would say 
Somalia, and each one is unique, and each one is going to take 
a different strategy, a different set of tactics.
    Senator Boxer. Do you agree with that list?
    Mr. Johnson. Not as sponsors. Right now where the terrorist 
activity is underway, I do not see Yemen as much of a concern, 
because President Saleh, he told a group of Americans last year 
in private conversation, he said look, I do not like you guys, 
but you are winning and I am going with the winner. He was very 
up-front about it.
    Senator Boxer. It is the big horse theory.
    Mr. Johnson. Absolutely. I think when you are looking at 
where the terrorist activity is, Pakistan is a problem. In the 
year 2000 almost 50 percent of everyone who died and was 
injured in an international terrorist attack died in India. 
Those were the groups that were operating from Pakistan that we 
have been blowing up in Afghanistan.
    Now, Pakistan has been one of these odd fellows. I mean, 
they have been a very good friend with us in helping us 
apprehend Ramsi Yussef, the first World Trade Center bomber, 
Mir Amal Kansi, the fellow who shot up the CIA employees in 
February 1993, and yet on the other hand, the ISI, the 
intelligence service of Pakistan, aggressively funding and 
helping the Taliban and al-Qaeda, and these groups like the----
    Senator Boxer. Not any more, right? Didn't the head of that 
ISI----
    Mr. Johnson. The head was replaced, I believe. I cannot 
show you documents or evidence, but there are elements of ISI 
that continue to lend that support. Now, it is not the official 
government policy, and I recognize the difficult position that 
President Musharraf is in, but the reality--and again, this is 
something that has to be conveyed to the Pakistanis very 
clearly.
    We have got to get away from this notion that people can 
play with double standards, that they can give us the lip 
service and continue to slip the dollars under the table to 
these folks, because when you step back and look at it, Lebanon 
does not do what Lebanon does without the help of Syria and 
Iran. Now, I am glad that Iran says they want to be part of 
this global campaign. Great. Step to the plate, shut down the 
camps, and give us Imad Mugniyeh for starters.
    The group that is operating in the Philippines, that is one 
that is a little more containable, and Michele is correct that 
the Philippines, particularly in the southern rim, with the 
Moro Islamic Liberation Front and Abu Sayyef, they were taking 
money from some of these Muslim charities. That was the case, 
and in fact I do recall when Ramsi Yussef, who blew up the 
World Trade Center the first go-around, was implicated in that, 
when he escaped from the Philippines he had two cohorts that 
were identified and taken into custody. One of those fellows 
escaped.
    I am told by my former boss at the State Department, and I 
have no reason to doubt him, No. 1, because he was a marine, 
and marines do not lie, they had on videotape at one of the 
Filipino hotels a Saudi Arabian diplomat passing an envelope to 
one of those individuals. Now, how the whole money lash-up 
works between these charities, between these official 
governments--but that has been going on for several years, and 
that has got to stop, because when you dry up the money and you 
dry up the support, the reality of--last year, most of the 
terrorist incidents, they took place in Colombia, and India. 
Those two accounted for over 60 percent, and then when you 
factor in the Philippines, I do not want to say that terrorism 
disappears. There is always going to be a problem there, but 
this threat we face from people willing to kill Americans, I 
think that will disappear.
    Senator Boxer. I just notice, neither of you mentioned 
Iraq. Would you care to give us your view on that?
    Ms. Flournoy. If I could just clarify, my previous answer 
was really focused, actually, on countries that have groups 
affiliated with al-Qaeda, not necessarily state sponsors. I am 
sorry, I was answering a different question.
    On Iraq, I have not seen evidence that has directly tied 
Iraq to the activities of al-Qaeda on 9/11. That said, I think 
that we know, we certainly know Iraq is a rogue state. We know 
that it has engaged in a range of illegal activities. We know 
that Saddam tried to assassinate a former U.S. President. I 
think regime change in Iraq should definitely be a U.S. foreign 
policy objective, no question in my view. It is a question of 
timing and sequencing.
    If we were to go after Iraq as a next step, an immediate 
next step, I fear that we would lose many of the key members of 
the coalition that are critical to our success against al-Qaeda 
as we move forward in intelligence, law enforcement, financial 
cooperation. So I think we have to make a choice in sequence 
here. I personally would finish the job against al-Qaeda before 
turning the focus on Iraq, unless we gain some new evidence 
that links Saddam Hussein, for example, to supplying some 
weapons of mass destruction or something like that to al-Qaeda.
    Mr. Johnson. I agree. Let me just add a couple of tidbits. 
I am not a believer in conspiracy theories, and having worked 
both in the Bush administration and the start of the Clinton 
administration I find it hard to believe that the CIA and the 
FBI have somehow conspired to keep intelligence about Iraqi 
involvement in terrorism out of ``Patterns of Global 
Terrorism,'' which is published every year.
    Here is what we know for a fact. Iraq sponsors the 
Mujahedin el Kalhq, who attack Iranians. They have sponsored 
the PKK, which was attacking the Kurdish Workers Party, which 
was attacking Turkish targets, and they have gone after Iraqi 
dissidents. The only recorded attempt we have since 1993, April 
1993, was the attack in April to go after Bush for one, and 
they failed.
    What I have seen in looking at Iraq's intelligence 
capabilities, they have tended to be sort of the Wile E. Coyote 
of terrorism. They more often than not pull the anvil down on 
their own head. They launched forty hit teams during the gulf 
war. Every one of them was wrapped up. Two of the guys blew 
themselves up in Manila. They were not terribly artful. They 
continued that pattern in the case of the attempt to kill 
former President Bush, thank God, that they failed.
    So, could they be involved, yes. Do they have to be, are 
they one of the top sponsors right now? I think people that are 
saying that, they are making up facts, because the facts are 
not there to justify it, but as Michele correctly noted, we do 
need to deal with them because they are not living up to their 
agreement that they signed in 1991 not to go after weapons of 
mass destruction.
    Senator Boxer. Exactly, and that is a huge issue, because 
we cannot get in there.
    Senator Nelson.
    Senator Nelson. If you were to state--this is a question 
for both of you--to one of the leaders of these nations like 
the King in Saudi Arabia, or the President in Egypt or 
Pakistan, how you would like them to stop their duplicity, how 
would you put it? Ms. Flournoy.
    Ms. Flournoy. I would say, and I am not a diplomat, and 
that may show, a couple of things. One is, I would say, we know 
you have a problem of extremists on your soil. In the past, you 
have managed that problem by tolerating a certain degree of 
activity as long as it was directed outward. That is no longer 
acceptable to us, because we have lost too many lives as a 
result of that posture, so that needs to change.
    The second thing I would say is, when we look at the 
demographics of your region, we are quite alarmed, and we think 
that if you do not create more political opportunities for 
participation, real economic development for your population, 
you will go the way of Iran.
    When people say democracy does not work, modernization does 
not work, my question back is, what is the alternative, and I 
think the alternative is to watch the region go the way of Iran 
over the next decade or two. That is my fear.
    So I think the demographics give us no choice but to try to 
find some means of giving these populations voice and 
opportunity, so they choose a nonviolent course.
    Senator Nelson. Mr. Johnson.
    Mr. Johnson. I would not put Egypt in the same category as 
Saudi Arabia in terms of not being cooperative. They have 
actually--they have been very aggressive in going after their 
elements, and you will find that the key elements in al-Qaeda 
from Zawahiri Atef, they have been sort of the brains for bin 
Laden's vision, and this Muslim brotherhood issue is something 
that goes back in the 1980's.
    I think, though, with the Egyptians is, it is a different 
tack of saying, you have got to start doing something about 
addressing the lack of economic development in your country. 
You cannot continue to be a breeding ground for some of these 
folks. With the Saudis, though, I think we are going to have to 
be even more direct and say, we are not going to continue doing 
business as usual. You are not going to continue getting visas 
just because you are Saudis, we trust that you have enough 
money and that you are not going to come to the states and 
stay. Until you start showing us with concrete actions across 
the board that you are not going to tolerate this--I give you 
another case in point.
    When Khobar Towers was blown up in 1996, the Central 
Intelligence Agency was not allowed to collect information on 
Saudi Hezbollah because we did not want to offend the Saudis. 
Now, I realize sometimes I am a little harsh and I may say 
things in an awkward manner and tick people off, but look, if 
we are going to make our concern in Saudi Arabia whether or not 
we keep them happy, we have got the wrong focus. We need to be 
willing to make them unhappy, because the people who blew up 
Khobar Towers, it was Saudi Hezbollah, and because we were not 
looking at them, we could not see it coming.
    Senator Nelson. How would you say it to President 
Musharraf, given the fact that Musharraf has gone a great part 
of the distance already in helping us out?
    Ms. Flournoy. I think there I would start by actually 
acknowledging that he has exhibited a fair degree of courage in 
how he has responded to our request for assistance. And that 
has been wonderful in the short term. But in the long term, we 
need to look at the underlying conditions, at what is fueling 
this, at economic situation in your country. The fact is that, 
for many people, these fundamentalist religious institutions 
that indoctrinate jihad are the only opportunities they have 
for some sort of education. You need to help change that. You 
need to be a participant in actively changing the conditions 
that continue to fuel this fire.
    Mr. Johnson. There is a need to, I think, start being very 
creative about the international focus, and whether it is U.S. 
troops on the border in Kashmir, because I do not sleep 
comfortably at night with India and Pakistan both nuclear 
armed, engaged with this proxy war of terrorism up in the 
Kashmir, and I realize Musharraf has got some significant 
problems to contend with domestically in trying to keep the 
fundamentalists and extremists tamped down, and trying to 
cooperate with us, and I think we are going to have to broaden 
this to beyond just the bilateral U.S.-Pakistani issue, that 
they are going to get some solid assurances that neither 
Pakistan nor India are going to find themselves feeling at 
risk.
    Senator Nelson. Finally, Madam Chairman, you had suggested, 
Ms. Flournoy, that you would use NGO's instead of the 
government in order to encourage this changed kind of behavior. 
Can you amplify on that?
    Ms. Flournoy. I am thinking of the kind of work that a 
USAID sometimes does in its longer term development assistance 
work, where we essentially contract out with either United 
States or sometimes international NGO's to actually do the 
work. If you are trying to fundamentally change a civil society 
and an educational system, you cannot just go from the top 
down. You have got to work from the bottom up. I am not a 
development economist, but I am sure there are models out there 
of programs that have been more effective in actually reaching 
local populations and addressing the whole question of civil 
society, but again I am not an expert in that area.
    Senator Nelson. Thank you.
    Senator Boxer. Let me just bring this back to kind of what 
is happening on the ground, Mr. Johnson. What effect would the 
capture or death of Osama bin Laden or Al Zawahiri have on the 
ability of al-Qaeda to operate, knowing what you know about 
them? Are there others who would step up? I mean, the FBI seem 
to think--well, I did not get too direct an answer on the point 
from them to tell you the truth.
    Mr. Johnson. These guys are not in the situation like the 
New England Patriots, where you have Tom Brady at quarterback 
and a great backup on the bench.
    Senator Boxer. I knew someone would use a football analogy 
sooner or later. That is OK.
    Mr. Johnson. But they are really not deep. They are not 
deep in the leadership, and taking them out would be like 
taking out Adolf Hitler and Goebbels and Hermann Goering during 
World War II. Is it a blow that they could recover from 
potentially, and that assumes that we back off, allow these 
countries to go on, allow them to reconstitute.
    As long as they cannot reconstitute and we can keep that 
pressure on, I do not think they are in a position to just 
suddenly magically grow intelligence, because even looking, 
with all of the skills and resources and commitment that al-
Qaeda and bin Laden have had, and with the support of Zawahiri, 
on average they were only able to carry off a terrorist 
spectacular event about once every 12 months. Sometimes it took 
24 months. They were in about a 12-month cycle, and I think we 
need to recognize that, because I am not suggesting they do not 
represent a threat, but also they are not in a position like a 
U.S. military force who can go and carry out an attack every 
day, every week, every month.
    Senator Boxer. And particularly, do you think because they 
are under such enormous pressure?
    Mr. Johnson. Look, you have got to have a place to sleep. I 
do not know if you had the chance--there was a wonderful image 
on CNN this morning of one of the al-Qaeda fighters who had a 
veil half over his face and the guy was sobbing about what the 
bombing did to him. I do not care how tough you think you are, 
if you are getting 5,000-pound bombs dropped on your head and 
you are not getting to sleep for a week you do not do well 
psychologically.
    There is no human being in the world that can be sleep-
deprived for a week or two and function well without going 
psychotic, and that is what these people are up against right 
now. Cut out their money as well, cut out their ability to 
travel, and without that, then you do disrupt the organization, 
and I think over the short term we make it much more difficult 
for them to carry out.
    What I worry about is the long term, because our human 
nature is, we then go, well, we got that licked, and then we 
ignore it and it comes back.
    Senator Boxer. Before, Michele, you add your point, I 
wanted to ask you about this reward, the large monetary reward. 
Do you think that--are those rewards a good strategy in 
capturing terrorists, do you think?
    Mr. Johnson. As one of the individuals that helped put 
together the first terrorism rewards advertising campaign back 
in 1989 and 1990, when we used Charlton Heston, Charles 
Bronson, and Charlie Sheen in the Heroes Campaign, that was 
only $2 million.
    Senator Boxer. You had to be Charlie to get into it?
    Mr. Johnson. It was a Charlie Campaign, but my partner on 
that, Brad Smith, who died 2 years ago of Lou Gehrig's disease, 
Brad was--he was running the rewards program from his 
wheelchair, and he was paralyzed from the neck down, working 
from his house down in Fredericksburg, Virginia, but it was 
Brad's creativity in coming up with a matchbook cover--in fact, 
the real story behind that was, he knew he was dying of Lou 
Gehrig's disease, and he went to his boss, Tony Quenton, who 
was the head of Diplomatic Security, and said, I have got this 
idea, and Mr. Quenton said, that is a terrible idea, do not do 
it.
    So Brad went ahead and did it because he figured, I am 
dying, what can they do to me, and then he was smart enough, he 
sent copies up here to the Foreign Relations and Foreign 
Affairs Committees, and all the Members said, this is a great 
idea, and they called the State Department and said, this is a 
wonderful idea. Mr. Quenton said yes, I know, I thought of it.
    Now, it was Brad that thought of it, and that matchbook 
cover was important in bringing in information that led to the 
arrest of Ramsi Ussef the first go-around in January 1995 in 
Pakistan.
    Senator Boxer. So you think there are people running around 
looking for bin Laden, looking under the veils of the 6 foot 5 
inch individuals?
    Mr. Johnson. The family of Miramal Kansi, who assassinated 
CIA employees outside the entrance to the CIA headquarters, his 
own family gave him up for $2 million, so for $25 million, 
there are folks over there who do understand the value of a 
dollar.
    Ms. Flournoy. I was just going to add one counterpoint on 
the question of the mid to long term. My concern is that 
members of al-Qaeda and other affiliated groups have 
demonstrated what I think is pretty extraordinary patience, and 
the ability to go to ground and to be sleepers for a very long 
time. If you look at someone like Atta, the years of planning 
and preparation this took, and the degree to which he waited, 
my concern is that people will go to ground for the next couple 
of years and we will think it is over, and once the guard is 
let down, I worry about whether we can sustain our national 
resolve.
    Can we sustain our national vigilance? Can we keep on this 
when there is not a demonstrated threat of attack? If we think 
it is, ``over,'' we will let our guard down and they will be 
back. That is my concern. Yes, you hurt them when they cannot 
recruit and train openly, et cetera, but there is enough of 
them now that if they go to ground and wait us out----
    Senator Boxer. I am really glad you said that, because that 
is one of the purposes of this hearing also. This is very 
different than a lot of challenges we face, because it is so 
long term, as in forever. Look, all you have to do is read 
Larry's testimony where he quotes from what we are calling the 
manual, the main mission--this is the words of al-Qaeda. The 
main mission for which the military organization is responsible 
is the overthrow of the godless regimes and their replacement 
with an Islamic regime. That is the main mission.
    Now, there are a lot of countries that are not going to 
become Islamic regimes because they tell us we have to do that. 
There is a lot of countries. So that is a very deep hole for 
certain people. That is why I have a little pull with you, 
Michele, just because I know your point is that you are saying 
well, if people are fed and they have opportunity, they will 
not go, but a lot of these people that go there are not poor 
people.
    Look at Osama bin Laden himself. Look at some of the people 
in the top echelons. You are right in terms of lower down, but 
the top operatives are not going to be dissuaded because they 
could get a job, that is my own opinion, because it is a deeper 
motivation that reaches to their soul, and therefore we have to 
reach to our soul to say, this is not what we are about. We are 
about diversity. We respect Islam and we respect everything 
else, and that is what our country is, and so therefore we 
remain a target for these people who are on this terror, and so 
I think your pointing this out is really, really important.
    I was asked today on some TV program did I think the 
American people had the wherewithal to stick with it, and I 
believe that we do, because I believe what they did in this 
attack on us touched so deep into our minds and our hearts and 
our lives that we will never, ever, ever forget it. Whether we 
were 8 years old and we saw it on TV and we asked our mother to 
explain it, or dad, or we were 85, we will never forget it. We 
know where we were when we saw it. We know it was one of those 
seminal moments in American history that we will not forget, 
and therefore I do not feel we will let down our guard.
    But I think hearings like this really help, because we need 
people like you to level with us, and what I liked about 
hearing from all of you is that Larry makes a good point, this 
is very serious, but do not be in despair, because they are not 
everything that they want us to believe they are. It is an 
important point, Michele's point that we need multifaceted 
response to all of this, and the FBI just on the ground saying 
they are not going to stop until probably--they will never 
stop.
    So this has been extremely helpful. Bill, do you have any 
more to add, or would you like to make a closing statement?
    Senator Nelson. No. I just wanted to reconfirm, I spent 2 
hours Sunday with the widower of a beautiful friend who was on 
American Flight 11, sitting up there in first class, close to 
seat 2D where Mohammed Atta was sitting, and I will tell you, 
when you hear that widower just pour his heart out for 2 hours, 
it is something that just so sears you, not even to speak of 
the experience you and I had on the morning of September 11 on 
the west side of the Capitol as we looked out the window when 
somebody burst in and said the Pentagon has been hit, and what 
we saw, not even to speak of what my wife saw in the apartment 
that we had just moved into 3 days before, overlooking the 
southwest corner of the Pentagon.
    While she was getting dressed she heard the plane. She 
said, it sounded so low, like it was going to hit the 
apartment. She heard the explosion. She ran to the window and 
saw the whole thing. So what she saw, what you and I 
experienced, and tragically what my friend from Boston and 
Miami experienced is seared in the minds of good people all 
over Planet Earth, and they will not forget it.
    Senator Boxer. Eighty people they killed, 300 Muslims they 
killed in the World Trade Center. Every plane was headed for 
California.
    So therefore, Michele, I think that we will stick to this, 
and I just want to thank both of you very much for excellent 
testimony and all the panelists, and we stand adjourned. Thank 
you.
    [Whereupon, at 4 p.m., the subcommittee adjourned.]


</pre></body></html>
